January 4, 2021

Direct Dial: (212) 894-6710
Direct Fax: (212) 370-4453
sstegich@condonlaw.com

VIA ECF
Scott S. Harris, Esq.
Clerk of the Court
Supreme Court of the United States One First Street, N.E.
Washington, D.C. 20543
Re: Servotronics, Inc. v. Rolls-Royce PLC and The Boeing Company, Docket No. 20-794
Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, the undersigned counsel of record for petitioner
Servotronics, Inc., respectfully requests referral of respondents’ motion for an extension of
time to file a response to the petition for writ of certiorari to a Justice.
As noted in the objection of January 3, 2021, there are compelling circumstances that
necessitate a speedy ruling on the petition and requiring respondents to proceed in a timely
manner would not result in a hardship or prejudice for respondents. This matter presents a rare
opportunity for the Court to resolve an issue of significance to practitioners and litigants
involved in international and foreign commercial arbitrations that is the subject of a clear split
of authority among the Circuit Courts of Appeals, but delay in review by the Court creates an
unnecessary risk that the issue could be rendered moot. Specifically, petitioner is seeking a
definitive ruling on whether the discretion of federal district courts to assist in gathering
evidence for use in a “foreign or international tribunal” granted by 28 U.S.C. § 1782(a)
encompasses private commercial arbitral tribunals. It should be noted that the importance of
this issue to interested non-parties, the need for clarity, and the reasons why this issue does not
appear to have been raised with the Court before and is unlikely to be submitted for review
again in the near term will be discussed in an amicus curiae brief supporting the petition which
the International Institute on Conflict Prevention and Resolution will be filing with the Court
tomorrow.
Based on the compelling need for a speedy ruling on the petition, it is respectfully requested
that respondents’ motion for an extension of time to file their brief in opposition be referred to
a Justice of the Court.
Respectfully submitted,

Stephen R. Stegich

Scott S. Harris, Esq.
January 4, 2021
Page 2
SRS/br
cc:

Scott P. Martin, Esq.
Larry S. Kaplan, Esq.

